<html>
<title> - STATE AND LOCAL PERSPECTIVES ON TRANSPORTATION</title>
<body><pre>[Senate Hearing 112-895]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 112-895
 
             STATE AND LOCAL PERSPECTIVES ON TRANSPORTATION 

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 6, 2011

                               __________

  Printed for the use of the Committee on Environment and Public Works
      Available via the World Wide Web: http://www.fdsys.gpo.gov

                               __________

                         U.S. GOVERNMENT PRINTING OFFICE 

88-761 PDF                       WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001


               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                      ONE HUNDRED TWELFTH CONGRESS
                             FIRST SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
THOMAS R. CARPER, Delaware           DAVID VITTER, Louisiana
FRANK R. LAUTENBERG, New Jersey      JOHN BARRASSO, Wyoming
BENJAMIN L. CARDIN, Maryland         JEFF SESSIONS, Alabama
BERNARD SANDERS, Vermont             MIKE CRAPO, Idaho
SHELDON WHITEHOUSE, Rhode Island     LAMAR ALEXANDER, Tennessee
TOM UDALL, New Mexico                MIKE JOHANNS, Nebraska
JEFF MERKLEY, Oregon                 JOHN BOOZMAN, Arkansas
KIRSTEN GILLIBRAND, New York

       Bettina Poirier, Majority Staff Director and Chief Counsel
                 Ruth Van Mark, Minority Staff Director




                            C O N T E N T S

                              ----------                              
                                                                   Page

                             APRIL 6, 2011
                           OPENING STATEMENTS

Boxer, Hon. Barbara, U.S. Senator from the State of California...     1
Cardin, Hon. Benjamin L., U.S. Senator from the State of Maryland    92
Inhofe, James M., U.S. Senator from the State of Oklahoma........    99
Lautenberg, Hon. Frank R., U.S. Senator from the State of New 
  Jersey.........................................................    99
Boozman, John, U.S. Senator from the State of Arkansas...........   100
Carper, Tom, U.S. Senator from the State of Delaware.............   100

                               WITNESSES

Leggett, Hon. Isiah, county executive, Montgomery County, 
  Maryland.......................................................     2
    Prepared statement...........................................     5
Kennedy, Bill, commissioner, District 3, Yellowstone County, 
  Montana........................................................     8
    Prepared statement...........................................    10
McKim, Cindy, director, California Department of Transportation..    13
    Prepared statement...........................................    16
        Recommendations for the Surface Transportation 
          Reauthorization Bill 


Degges, Paul, chief engineer, Tennessee Department of 
  Transportation.................................................    31
    Prepared statement...........................................    34
        Recommendations from the Tennessee Department of 
          Transportation 


Wright, Thomas K., executive director, Regional Plan Association.    49
    Prepared statement...........................................    52
    Responses to addititional questions from Senator Carper......    59
Malone, Mike, executive director, Northwest Arkansas Council.....    72
    Prepared statement...........................................    75

                          ADDITIONAL MATERIAL

Report, Regional Plan Association, July 2010, The ARC Effect, How 
  better transit boosts home values & local economics 




             STATE AND LOCAL PERSPECTIVES ON TRANSPORTATION

                              ----------                              


                        WEDNESDAY, APRIL 6, 2011

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:15 a.m. in room 
406, Dirksen Senate Office Building, Hon. Barbara Boxer 
(chairman of the committee) presiding.
    Present: Senators Boxer, Lautenberg, Alexander, Cardin, 
Sanders and Boozman.

STATEMENT OF HON. BARBARA BOXER, U.S. SENATOR FROM THE STATE OF 
                           CALIFORNIA

    Senator Boxer. The committee will come to order, and I want 
to welcome our witnesses.
    I am going to put my opening statement in the record and 
hope that each Senator who arrives will do the same because we 
really want to get to talk to you and get some of your ideas.
    I wanted to give you an update on where we stand on the 
bill. We are working across party lines both here, I am working 
with Senator Inhofe and the Subcommittee Chairs and Ranking 
Members we call the Big Four to craft a transportation bill 
that we feel will be adequate to the needs of the country.
    We also have seen out in America the coming together of 
people of various political persuasions joining together to say 
that there is a lot of partisanship, but we are hoping that we 
don't have to face that in this bill. We have had Richard 
Trumka, the head of the AFL-CIO, and we have had Mr. Donohue, 
Tom, come together in a couple of venues. One was right here 
sitting over there at the table, and the other we had a press 
conference recently.
    So they are all together saying let's get this done because 
I think everyone knows we still have to create jobs. The 
construction industry, I don't have to tell all of you this 
because I think you know, is suffering with a 30 percent 
unemployment rate in the construction industry.
    So what we want to do today was to get some State and local 
perspectives, and we asked various colleagues here to recommend 
some of you to come speak to us. So we are very glad to see 
this array of people before us, and we will start. Instead of 
giving you 5 minutes because no one is here to take up the 
time, I will give you 7 minutes each, so you don't have to feel 
like you need to rush through. All right?
    So why don't you start the clock, and we are going to start 
with Hon. Isiah Leggett, County Executive, Montgomery County, 
Maryland. We are very excited to have you here, sir. Thank you.
    [The prepared statement of Senator Boxer follows:]
        Statement of Hon. Barbara Boxer, U.S. Senator from the 
                          State of California
    Economic recovery and job creation are top priorities for this 
Congress, and investing in transportation is essential to that effort.
    Surface transportation improvements create jobs in the construction 
industry, which has been especially hard hit by the economic downturn. 
The unemployment rate in the construction industry is currently 20 
percent, which is more than double the national average, and there are 
nearly 1.7 million unemployed construction workers nationwide.
    One of the most effective, far-reaching ways to create jobs and get 
the economy back on track is to fix the nation's outdated 
infrastructure.
    Our transportation systems used to be the best in the world, but 
investments have not kept up with needs, and now we are falling behind. 
The rest of the world is building infrastructure systems to move people 
and goods--and so must we.
    That is why the Environment and Public Works Committee is drafting 
a new surface transportation authorization bill, which we plan to mark 
up this spring.
    This legislation will help put people to work, improve the 
condition of our nation's highways, bridges, and transit systems, and 
reduce congestion and its impacts on commerce and communities.
    This legislation will impact all Americans because it sets the 
policy and provides the funding for transportation nationwide.
    State and local governments depend upon Federal dollars to augment 
those collected at the State and local level for transportation 
improvements. They also have to follow Federal laws and regulations 
when carrying out projects using Federal funds.
    As a result, State and local governments have a strong interest in 
the next surface transportation authorization.
    Because they are close to the ground and can see the direct effects 
of Federal investments in transportation on a day to day basis, it is 
important for us to hear directly from individuals and organizations 
from across this nation about their priorities for surface 
transportation authorization.
    In February, I was in Los Angeles for a Joint Field Hearing of the 
Senate Committee on Environment and Public Works and the House 
Committee on Transportation and Infrastructure to receive testimony 
from community leaders and government officials on national, State, and 
local transportation priorities.
    Cindy McKim, director of the California Department of 
Transportation (Caltrans) testified at that hearing and I am pleased 
she is able to join us today.
    Today's witnesses are from across the country, but they are all 
from states that are represented on this committee and can provide some 
State and local perspectives to our committee.
    I want to thank them all for coming here today. I look forward to 
their testimony.

 STATEMENT OF HON. ISIAH LEGGETT, COUNTY EXECUTIVE, MONTGOMERY 
                        COUNTY, MARYLAND

    Mr. Leggett. Thank you, Madam Chairman, and good morning to 
the committee Members. I especially thank Senator Cardin for 
inviting me to testify before you today.
    My name is Isiah Leggett, County Executive, Montgomery 
County, Maryland. Montgomery County is literally next door to 
the Nation's Capital, and the home to over 250 biotech 
companies and industry leaders such as Human Genome Sciences, 
MedImmune, and United Therapeutics.
    We also have the distinction of having 19 Federal 
facilities in our County, including NIST, NRC, FDA, NIH and the 
future home of the Walter Reed National Military Medical Center 
in Bethesda. As part of the Washington Region, we have the 
unenviable distinction of having the highest levels of traffic 
congestion and delays in the entire United States. We have such 
a distinction with our congestion even though we are second 
only to the city of New York in the total percentage of 
commuters using transit or carpools daily.
    Our major Interstate highways, the Washington Metrorail, 
the new Metro bus system, and the county's 300 local bus 
systems, which is one of the largest in the entire Nation, 
cannot keep pace with the demand.
    Montgomery County identified earlier this year more than a 
$1 billion shortfall in design and construction projects on the 
State roads in our County and an additional $4 billion in 
backlogged State transportation projects that have not 
completed environmental analysis.
    The situation is so dire on our State roads now, which we 
think we can resolve in the foreseeable future, that our County 
has had to take the unusual step on several occasions to 
provide significant local funds for State projects. Now that we 
are facing severe local funding constraints, Montgomery County 
no longer can afford to provide such funds to the State when 
our own road system has been underfunded for local 
transportation requirements in the hundreds of millions of 
dollars.
    Our traffic problems will deteriorate even further with the 
unexpected consequences of a major BRAC move to our County. A 
recent study by the National Academy of Science verified what 
we in Montgomery County already know, that the BRAC 
consolidation of two hospitals in Bethesda, while meritorious 
in its intent to establish a world-class military facility and 
medical facility, failed to account for the impact on the local 
transportation infrastructure. The potential gridlock around 
the Bethesda facility could be so severe that patients and 
doctors may be denied timely access to the facility.
    I want to repeat that, Madam Chairman. The potential 
gridlock around the Bethesda facility could be so severe that 
patients and doctors may be denied timely access to the 
facility.
    Montgomery County and the State of Maryland lack the funds 
to fully implement transportation projects to mitigate BRAC-
related gridlock. In reauthorizing the Federal highway program 
that includes the Defense Access Roads Program, I would urge 
the committee to take a look at an increased role for State and 
local governments so that we can avoid such problems in the 
future.
    We also must streamline the environmental review and 
approval process. We have a project in Montgomery County that 
we just opened the first leg of a few months ago called the 
ICC. It literally started in the 1950s with many attempts to 
obtain Federal approval. We failed in the 1980s, 1990s, but 
through the environmental streamlining process, in less than 3 
years we were able to resolve it.
    We need to find ways to increase revenues for the 
Transportation Trust Fund and continue funding New Starts. 
Simply maintaining the infrastructure at current levels of 
funding will continue our downward trend of failing 
infrastructure. Our competitiveness in the global marketplace 
will be reduced and our productivity will continue to be 
hampered by daily intolerable levels of congestion, poorly 
maintained and unreliable roads, and aging transit systems 
without the proper funding support to maintain acceptable 
levels of safety, efficiency and reliability.
    As we look to the future, we are relying heavily on mass 
transit. We have several major projects that are on the way. 
The ICC is one road project. But our real strength is looking 
at the Purple Line, the Corridor Cities Transitway, and a bus 
rapid transit system in Montgomery County that will help us 
relieve the daily congestion problems that we face.
    I want to thank you very much for the opportunity to 
discuss with you the transportation challenges in Montgomery 
County. I know that we have some difficulties at the local 
level, but we really need support in streamlining the process. 
We need support with additional funding, and we need 
cooperation at both the State and the Federal levels to avoid 
the consequences of what we see around the new Walter Reed 
National Military Medical Center in Bethesda.
    I will say, as you probably use the Metrorail System here, 
that our Metro system desperately needs additional funding to 
avoid the capital constraints that we currently have. It is a 
main system that literally serves the entire Nation. But in 
serving the Nation, we need help and support from the Federal 
Government to relieve the problems that we face day in and day 
out. We have identified in the last year a number of major 
capital constraints that have hampered the system from 
resolving the already-identified safety concerns. That is 
something that is high on our list for the entire area, but 
literally for the entire Nation.
    Madam Chairman, thank you for the opportunity to address 
you, and I will be able to respond to any questions after the 
other panelists have finished.
    [The prepared statement of Mr. Leggett follows:]

    [GRAPHIC(S) NOT AVAIALBLE IN TIFF FORMAT]
    
    Senator Boxer. Thank you so much, Mr. Leggett.
    Our next witness is Hon. Bill Kennedy, who is the 
commissioner of District 3, Yellowstone County, Montana. We 
welcome you.

   STATEMENT OF HON. BILL KENNEDY, COMMISSIONER, DISTRICT 3, 
                  YELLOWSTONE COUNTY, MONTANA

    Mr. Kennedy. Thank you.
    Madam Chairman, Ranking Member Inhofe and Members of the 
committee, I want to thank you for inviting me to testify on 
State and local transportation perspectives. My name is Bill 
Kennedy, Yellowstone county commissioner in Billings, MT. I 
serve both urban and rural interests, representing 
approximately 148,000 people, including Billings. Billings is 
Montana's largest city with just over 100,000 people, so I have 
a county that is about 60/40 urban and rural.
    I have also served on both Montana Highway Commission, I 
chaired it for 2 years, and the congressionally authorized 
Infrastructure Finance Commission, which produced a 2009 report 
examining funding needs and financing mechanisms.
    I am acutely aware of the funding challenges this committee 
confronts. Still, the American people need, No. 1, mobility; 
No. 2, safety; and No. 3, smart investment, and especially 
right now, in my State, it's jobs and jobs and jobs.
    But at this point, we lack investor confidence because they 
don't really see what their investments provide, other than 
earmarks. States like Montana are growing apprehensive about 
letting bids for projects due to uncertainty as the projects 
continue to grow more overdue by the day. I fear we will 
continue to go through one extension after another, much like 
the overdue FAA bill which was recently extended for the 18th 
time. As we have projects come due in Montana, what happens is 
we do not let those bids for projects until the money is in 
hand.
    Montana desperately needs the Federal Aid Highway Program. 
Despite being the 15th highest in State fuel taxes, we could 
never adequately maintain our interstates, arterials and county 
roads by ourselves because we have one of the lowest population 
levels and one of the lowest per capita income levels in the 
Nation.
    Meanwhile, we accommodate tens of millions of out-of-State 
users annually for tourism and also for our freight movement. 
The Highway Program is also critical to jobs in Montana, where 
unemployment in the construction sector exceeds over 20 
percent.
    We need a 21st century road network. Nearly half of 
Montana's primary and secondary arterials are at the end of 
their design life and 1 in 13 bridges is structurally 
deficient, according to a recent study that was published in 
the Billings Gazette last weekend.
    We need to modernize for safety reasons and that is why I 
stated before, safety is the No. 1 concern. We need a better 
north-south network to accommodate NAFTA movements because 
Montana shares a long border with Canada. We have trouble 
currently trying to get oversized rigs to Canada to the oil 
sands. If we are going to be energy efficient in this country, 
we need to make sure that we have the Interstates and the 
roadways to travel with oversized loads.
    We need local buy-in on these projects in order to generate 
support for this program at the ground level. County 
commissioners and local government officials all across Montana 
need to have a say in being able to look at these projects and 
work hand in hand with MDOT and Federal Highways on these 
projects to get them going.
    We need to continue investments in rural roads. It is very 
important. Where the fatality rate remains stubbornly high, we 
need to look at the safety on these rural roads. We need a 
truly national freight program that recognizes each State's 
individual needs. Montana is one of those States that a lot of 
freight is passed through to the West Coast.
    I also think we need rural planning and project 
streamlining. Madam Chairman, you will hear over and over again 
streamlining of these Federal projects, where smaller projects 
with limited environmental impact have a simpler path to the 
project approval and continued county road eligibility.
    But mostly what we need, we need action. We need a bill, 
whether it is a standard 6 years or even a 2-year bill to buy 
time while we hopefully have a national discussion about what 
we need as a Nation. What we want and what we need is 
certainty, and we need this soon. We will fail to see the jobs 
benefits by 2012 if we don't because obligations naturally take 
months to finalize. We are standing out there ready for 
projects to be bid with uncertainty about the money coming in.
    I am also vice chair of the Rural Action Caucus for the 
National Association of Counties. I also have their input on 
the reauthorization of the Federal Surface Transportation 
Project, and I would submit those as part of my testimony 
today.
    Senator Boxer. Without objection.
    Mr. Kennedy. So once again, I want to thank you for the 
opportunity to speak on behalf of my constituents and the State 
of Montana and for counties across the country.
    Thank you.
    [The prepared statement of Mr. Kennedy follows:]

    [GRAPHIC(S) NOT AVAIALBLE IN TIFF FORMAT]
    
    Senator Boxer. Commissioner, I want to thank you. Both 
speakers so far have been very clear. I couldn't agree with you 
more on the need to move and the need for certainty. I 
understand this. It has been really very difficult to have 
these extensions and extensions and extensions. I have not been 
a fan of these extensions. We have had to do them, but we must 
move forward. I think you are getting that sense of urgency.
    I will tell Senator Baucus that you gave very, very clear 
testimony and I know that he recommended you to speak to us 
today, as did Senator Cardin, each of the Senators who may not 
be here because we moved up the time of this hearing. I just 
want you to know how important your message is.
    OOf course, it is with great pride that I introduce our 
next witness, Cindy McKim, who is director of the California 
Department of Transportation. I know exactly what she faces on 
a daily basis and I am just thrilled that you are here and 
letting us know first-hand.

 STATEMENT OF CINDY McKIM, DIRECTOR, CALIFORNIA DEPARTMENT OF 
                         TRANSPORTATION

    Ms. McKim. Thank you, Madam Chairman. I am Cindy McKim, 
director of California's Department of Transportation.
    Today, I wanted to provide you with a broad sense of the 
transportation issues facing our State, the most populous in 
the Nation and the eighth-largest economy in the world. More 
than 40 percent of containers moving into and out of America 
use California's highways, railroads, ports and airports. With 
12 percent of the Nation's population, California is 
responsible for almost 14 percent of the Nation's gross 
domestic product.
    We in California recognize that transportation means 
business, business means jobs, and jobs propel our economy. We 
have put our money where our mouths are. Over the past 10 years 
at the State level in California, we have invested an 
additional $40 billion over and above the normal transportation 
dollars available into our transportation system. Our local 
agencies, several of our counties, have enacted special sales 
tax measures that provide an additional $4 billion a year for 
transportation improvements in those counties.
    We think that we certainly need to have action, but we also 
think this is a real opportunity for us to not just repeat the 
same-old, same-old in the new reauthorization bill, but to look 
at ways to be able to deliver projects more effectively, to 
make sure that we are communicating to all of our 
constituencies and our general public about the importance of 
transportation, and that we are using those dollars 
effectively.
    In California, we have analyzed the funding needed over the 
next 10 years to preserve our transportation infrastructure. 
Just to maintain and rehabilitate our existing highway 
infrastructure will require an additional $74 billion over and 
above what we are already providing. For local streets and 
roads, the shortfall is projected to be about another $78.9 
billion. So the needs are certainly outstripping our ability to 
be able to fund them.
    There are some key things that we would like to see in the 
next transportation authorization. First of all, 
reauthorization needs to ensure the financial integrity of the 
Highway and Transit Trust Funds. The current revenue stream 
will not provide the revenue or stability needed, especially as 
new fuels enter the marketplace. The result of starts and stops 
in funding availability is inefficient project delivery and 
wasted time and money.
    The next authorization will need to stabilize revenues and 
prepare the way for the transition to new methods of funding 
the Nation's transportation infrastructure, such as flexibility 
to use creative financing tools. Second, we need to rebuild and 
maintain our transportation infrastructure in good state of 
repair. Conditions on California's surface transportation 
system are deteriorating, while demand is increasing. We 
maintain and operate a highway system that was largely built 
over 50 years ago. Funding policies at the Federal, State and 
local levels tend to understate the life cycle costs of 
transportation infrastructure and must be revised.
    These combined factors of deteriorating systems, increasing 
demand and inadequate funding policies adversely affect the 
operational efficiency of our transportation assets.
    Our economic health demands that we establish goods 
movement as a national economic priority. The efficient 
movement of goods across State and international boundaries 
increases the Nation's ability to remain globally competitive 
and generate jobs. You can help by creating a new Federal 
program and funding sources dedicated to relieving growing 
congestion at America's global gateways. This congestion is 
acting as a trade barrier and creating environmental hot spots.
    Our urban areas need enhanced mobility through congestion 
relief within and in between metropolitan areas. California is 
home to six of the 25 most congested metropolitan areas in the 
Nation. These mega-regions represent a large majority of the 
population affected by travel delay and exposure to air 
pollutants. We ask that you develop incentives for those 
regions that are raising their own transportation dollars, 
perhaps by expanding the TIFIA Loan Program.
    The next authorization has the opportunity to streamline 
project delivery. Lengthy processing times for environmental 
clearances, Federal permits and reviews add to the cost of 
projects and delay needed mobility improvements for the 
traveling public. Given constrained resources, it is all the 
more critical that these clearances and reviews be kept to the 
minimum possible consistent with good stewardship of natural 
resources.
    I would like to point out that California was the only 
State to fully implement the National Environmental Policy Act 
NEPA delegation pilot program authorized in SAFETEA-LU, which 
California began using in 2007. Through this program, 
California has assumed most Federal responsibilities for 
environmental documents and now completes routine NEPA 
documents about 14 months earlier than before. Overall project 
delivery timeframes have improved as well. California 
recommends that this successful pilot be made permanent.
    You can consolidate Federal programs to improve efficiency 
and provide flexibility. The Administration's surface 
reauthorization proposal suggests consolidating 55 highway 
programs into five core programs, along with other program 
consolidations in other areas. If this includes giving the 
States flexibility in making funding decisions that are 
appropriate for them, it is a good start to providing the 
flexibility we need.
    We are looking for a continued, stable and reliable long-
term investment strategy from Washington that can support the 
transportation infrastructure necessary to continue our 
Nation's economic supremacy. No other action by Congress could 
serve transportation as well, create so many jobs, or build 
badly needed infrastructure as effectively as that action.
    Thank you.
    [The prepared statement of Ms. McKim follows:]

    [GRAPHIC(S) NOT AVAIALBLE IN TIFF FORMAT]
    
    Senator Boxer. Thank you so much. You hit on a lot of 
issues that are going to be central to our rewrite and I am 
going to question you in-depth about some of them.
    So Senator Alexander, you have arrived at the moment that 
we were going to call on your witness from your State. Would 
you like to call on your witness and so begin?
    Senator Alexander. Thanks, Madam Chairman.
    I welcome Paul Degges. We are real proud of the Tennessee 
Department of Transportation. He is Chief Engineer. He has been 
there 20 years, been there a little longer. But we have a very 
professional Department of Transportation and it has been that 
way through Republican and Democratic Governors. We have kind 
of alternated back and forth over the years. We found, Madam 
Chairman, that a good road system is absolutely essential to us 
in terms of attracting the auto industry so that the hundreds 
of suppliers who came into our State could make their time of 
delivery.
    So I am very proud to introduce Paul Degges, who is the 
Chief Engineer of the Tennessee Department of Transportation, 
and look forward to hearing his recommendations.
    Senator Boxer. Proceed, Mr. Degges.

STATEMENT OF PAUL DEGGES, CHIEF ENGINEER, TENNESSEE DEPARTMENT 
                       OF TRANSPORTATION

    Mr. Degges. Thank you, Chairman Boxer and Members of the 
committee, particularly Senator Alexander. I appreciate this 
opportunity to testify.
    I am Paul Degges. I am the chief engineer for the Tennessee 
Department of Transportation. Tennessee is a medium-size State, 
a little over 6 million people. We are about half urban, half 
rural. We have a lot of transportation needs.
    The department strongly encourages a 6-year authorization 
of the Federal bill. A multi-year authorization will enable 
Tennessee to pursue long-term planning and programming 
strategies. Without a multi-year bill, TDOT, along with our 11 
metropolitan planning organizations and 12 rural planning 
organizations, and even long with all of our cities and the 95 
counties in Tennessee, it makes it difficult for us to develop 
long-term strategies for the State.
    The department strongly encourages the concept of 
consolidating some 55 funding silos on the FHWA side of the 
fence into about five or fewer core programs. But we do believe 
that the overall funding should be made available to the States 
in a fashion similar to previous authorization, which 
distributes funds proportional to the State's population and 
transportation networks.
    We understand that there is a need in some cases for some 
special Federal aid programs to address regionally significant 
circumstances, but we don't believe there should just be a lot 
of set-aside programs that essentially create an Administration 
earmarking program.
    The bill needs to reinforce the concept of a federally 
assisted and State-administered program, as other panel members 
have spoke today. Every State has unique needs and a one-size-
fits-all solution is certainly not the way to go.
    We do need to be able to maintain our flexibility. The 
needs, as I said, vary from State to State and the 
consolidation needs to maximize our flexibility so these 
programs can meet the needs of individual States. The 
flexibility in the use of Federal aid funds holds true for all 
sources in the authorization, not only the operations programs 
of the Federal Highway Administration.
    We desire to see more flexibility in our transit programs. 
Tennessee is one of just a handful of States that have transit 
opportunity and transit access in all 95 counties in Tennessee, 
and we would like to see this flexibility extended in our 
transit programs as well. I know our 5309 Program is a model 
program where we work together with all transit providers 
across the State to get a good distribution of those funds.
    Our NHTSA program as well, our safety programs on the 
behavioral side, we would like to maximize our flexibility 
there. I know on motorcycles, for instance, we are seeing a 
rise of fatalities on motorcycles and we want to try to expand 
that flexibility and to try to help things out in that aspect.
    The buying power of transportation dollars are continuing 
to decrease and we have to maintain our aging infrastructure. 
We need some more flexibility in using Federal aid funds on 
maintenance activities. In Tennessee, we estimate our highway 
system alone to be worth about $15.5 billion and it only makes 
sense that we can expand our Federal investments to realize the 
maintenance of those systems.
    Streamlining project delivery is something that is key to 
what we do. In Tennessee, the average time from when we start a 
project to when you are driving on it is about 12 years. The 
national average I believe is about 13 years. We applaud FHWA 
Administrator Victor Mendez's Every Day Counts Initiative, 
which envisions a shortened project delivery time. But even 
under the Every Day Counts Program, it is unlikely that we are 
going to reduce time significantly.
    Federal constraint in our STIP is a big issue for us. We 
feel that the interpretation of the current guidelines have 
devolved into a checkbook accounting. A planning document is 
supposed to be a high-level view, and when I am ready to go to 
construction on a project, I don't feel I should have to delay 
the construction phase to update the planning document.
    So we feel that there are some opportunities for some 
groupings in our STIP-TIP process that will allow us to 
streamline project delivery.
    States need to be afforded the opportunity to maximize the 
flexibility in today's transportation climate and must be 
allowed discretion to make choices on the project selection 
because of unknowns that can occur in the environmental 
permitting and right-of-way areas that can adversely affect the 
development schedule of a project. That ultimately will affect 
our ability to draw down Federal funds available to us.
    We don't believe that the STIP should be used as a 
checkbook accounting of funds available to the department 
because it is a planning document.
    Another impact on project delivery is regulatory impacts. 
We believe that once a project has made it through the NEPA 
process and has an approved environmental document, that 
changes in regulatory guidance and other aspects of 
environmental rules shouldn't have us to stop and start over on 
the project to do a redesign to comply with changing rules.
    We are also concerned about the condition and the 
maintenance of our facilities. If I have a bridge over a 
stream, it is very difficult for us to come in and have to do a 
total redesign when I just want to maintain the structure. A 
lot of the Federal rules make it very difficult for us just to 
maintain our projects.
    In closing, the transportation system is the backbone of 
our economy. It is all about creating jobs and again, I am 
honored to be asked to come here and talk today, and we 
continue to look forward to ways to improve our transportation 
system. A multi-year authorization bill is important and we 
need your help in getting this important legislation passed.
    Thank you.
    [The prepared statement of Mr. Degges follows:]

    [GRAPHIC(S) NOT AVAIALBLE IN TIFF FORMAT]
    
    Senator Boxer. Thank you so very much.
    Our next witness is from the Regional Plan Association. Mr. 
Wright, would you explain to us before your time begins who you 
actually represent, which States? We welcome you.
    Mr. Wright. Thank you. Regional Plan Association is a civic 
non-profit group based in New York City, New Jersey and 
Connecticut.

  STATEMENT OF THOMAS K. WRIGHT, EXECUTIVE DIRECTOR, REGIONAL 
                        PLAN ASSOCIATION

    Mr. Wright. Good morning and thank you for the opportunity 
to submit testimony to the Senate Committee on Environment and 
Public Works. Thanks in particular to Senator Lautenberg, who I 
interned for 23 years ago, to return here today.
    My name is Tom Wright. I am executive director of Regional 
Plan Association. We are America's oldest independent regional 
planning research and advocacy group. Since 1922, Regional Plan 
Association has prepared long-range plans and policies to guide 
the growth and development of the New York-New Jersey-
Connecticut metropolitan region.
    Looking forward from 2000 to 2050, the Census Bureau 
forecasts that America will grow by 158 million people, 
reaching a total population of 439 million. That is more than 
the 120 million people that America added from 1950 to 2000 
during the rapid growth years following World War II and during 
which time America built the entire Interstate highway system.
    Most of the growth in this country will take place in mega-
regions, the large networks of metropolitan regions such as the 
Northeast, Southern California, the Texas triangle, and the 
Arizona sun corridor. Mega-regions are the new competitive 
units in the global economy. They are competing with a 
similarly sized global integration zones of Europe and 
Southeast Asia, where tens of billions of dollars in 
investments have been made in high-speed rail and goods 
movement systems to support the highly mobile work force of the 
global economy.
    Nationally, we should be developing intercity rail 
corridors of up to 500 miles in length to promote alternatives 
to air and road travel. While we support the creation of new 
high-speed rail corridors, it is important to note that simply 
providing frequent, reliable higher-speed service of 100 miles 
per hour in dense corridors would result in major increases in 
ridership.
    For instance, the Northeast Corridor moves approximately 
three-quarters of a million people per day to their jobs. These 
movements are critical to the Northeast's $2.6 trillion 
economy, which accounts for roughly one-fifth of the U.S. GDP. 
Imagine if 750,000 additional daily passengers were suddenly 
added to I-95 and the Northeast's major airports. Our 
transportation network would come to a standstill.
    Within metropolitan regions, we must continue to invest in 
our public transportation systems as economic development 
tools. Our metropolitan regions can accommodate the projected 
increases in population if we focus density in development near 
transit. There are 900 stations in the New York region. All 
should and could be focal points for development and smart 
growth.
    The New York-New Jersey-Connecticut metro region boasts the 
highest use of public transit anywhere in the country, and yet 
our systems are struggling because of a history of taking on 
debt to cover operating costs and a lack of funding for capital 
improvements to expand our capacity. As everyone is aware, last 
fall Governor Christie in New Jersey canceled the access to the 
region's core project, citing concerns over potential cost 
overruns.
    ARC would have been New Jersey and New York's biggest 
investment in transit ever. It would have doubled the number of 
trains that can travel every morning into the economic engine 
of the region from west of the Hudson River.
    The 1996, 2002 and 2003 New Jersey Transit significantly 
improved train service with Midtown Direct, the Montclair 
Connection and the Secaucus Junction. Each of these projects 
shaved up to 20 minutes in travel times to midtown Manhattan 
and created a jump in ridership. Collectively, these projects 
increased the number of New Jerseyans living within a 70-minute 
commute of midtown Manhattan, from around 1.6 million to about 
2 million people.
    Not surprisingly, the number of riders taking New Jersey 
Transit trains into New York has quadrupled from about 10 
million a year to over 40 million a year over the past three 
decades. These projects also increased property values of homes 
within 2 miles of train stations. Based on a regression 
analysis of 45,000 home sales, RPA has calculated that every 
minute saved from a transit trip to midtown Manhattan adds 
almost $3,000 to the value of a home within a half-mile of a 
train station.
    Building a new tunnel under the Hudson River would double 
the number of New Jerseyans living within a 50-minute commute 
to midtown Manhattan, from about 750,000 to 1.5 million. On 
average, stations would see a travel time improvement of 10 
minutes and homes within a half-mile of those stations would 
gain $29,000 in value. Cumulatively, homes within 2 miles of a 
train station would gain about $18 billion in additional value, 
representing an additional $375 million a year in property tax 
revenues for the municipalities affected.
    These findings are consistent with other national studies 
which have identified a strong link between transit service and 
economic benefits. Houses immediately adjacent to San 
Francisco's BART sold for nearly 38 percent more than identical 
houses in areas not served by BART. Residential rents decreased 
by 2.4 percent for every one-tenth of a mile further from 
Washington, DC. Metro stations.
    As politically difficult as it may be, we must find a way 
to pay for these investments. New capacity is a prerequisite 
for economic growth in metropolitan regions where we face 
limited roadway, transit and airport capacity.
    We urge the committee to consider a range of options to 
generate more funding for transportation investments, such as 
raising and indexing the gasoline tax to inflation, 
implementing user fees such as VMT charges, and supporting 
public-private partnerships.
    Second, we strongly support proposals for a national 
infrastructure bank, which would provide loans and grants for 
priority infrastructure projects evaluated on a competitive 
basis. New Federal financing tools could help leverage local 
revenue streams that voters have approved through local ballot 
initiatives to support specific packages of transportation 
improvements.
    In closing, there is no more suitable role for the Federal 
Government than to support the Nation's future growth with 
long-term investments in infrastructure that promote economic 
prosperity, a healthy environment, and the freedom of movement 
across our landscape. These opportunities are most vital in the 
Nation's metropolitan areas, where economic activity and people 
are concentrated.
    Thank you for the opportunity to share this research with 
you this morning.
    [The prepared statement of Mr. Wright follows:]

    [GRAPHIC(S) NOT AVAIALBLE IN TIFF FORMAT]
    
    Senator Boxer. Thank you very much.
    Senator Lautenberg, you did very well with your intern.
    [Laughter.]
    Senator Boxer. You taught him well.
    Senator Lautenberg. As I listened to his presentation, 
nothing made my heart beat faster because of the need and 
availability of what happens when we find that we offer rail 
service. I think that, Tom, if I may, he worked for me and he 
got me where I am.
    [Laughter.]
    Senator Lautenberg. Anyway, but the increasing value of 
homes and business along the way. We have a line that goes from 
Trenton down to Camden, and it didn't take long after that line 
was completed for businesses to start moving into the area. We 
have things called transit villages that immediately seemed to 
sell and sell well.
    So I thank you, Mr. Wright, for your service and the 
Regional Plan Association is one of the most important 
transportation agencies in the country.
    I thank you, Madam Chairman, for holding this hearing.
    Senator Boxer. Thank you so much, Senator.
    Senator Boozman, would you like to introduce the witness 
from your home State?
    Senator Boozman. Yes, ma'am, very much. We are really 
pleased to have Mr. Mike Malone with us. Mike is a native of 
Arkansas and is the executive director of the Northwest 
Arkansas Council. The hallmark of the Northwest Arkansas 
region, which is the fastest-growing area of the State is their 
ability to work together, build consensus. In doing so, have 
really been able to put together coalitions that have done 
remarkable work in getting projects that are so important for 
the area and State done.
    Mr. Malone truly understands the challenges of private 
transportation and all the challenges that that represents in 
getting the infrastructure put in place. Mike is also in a 
unique position. He worked for the House Appropriations 
Committee for several years and was one of their most respected 
members on both sides of the aisle because of his ability in 
building consensus and having tremendous grasp of knowledge in 
different areas.
    So I think he really does have a unique perspective, not 
only of the challenges at the private level, but also the 
challenges here that we face in trying to provide funding and 
be as helpful as we can.
    So it is a real pleasure to have you with us today, Mike.
    Mr. Malone. Thank you.
    Senator Boxer. Thank you.
    Please proceed, Mr. Malone.

    STATEMENT OF MIKE MALONE, EXECUTIVE DIRECTOR, NORTHWEST 
                        ARKANSAS COUNCIL

    Mr. Malone. Thank you, Madam Chair, Senator Boozman, 
Members of the committee. Thank you very much for the 
invitation and the nice introduction. I appreciate that.
    I also as a former staffer want to offer thanks to your 
staff for being so hospitable to us. They were great to work 
with as well.
    Senator Boxer. Thank you.
    Mr. Malone. Northwest Arkansas has a very exciting story to 
tell and I am very pleased to be able to offer it to you today. 
Much like Mr. Wright described, my organization that I work for 
is an independent advocacy group that works at the regional 
scale. A smaller region than the New York-New Jersey-
Connecticut region, but an important contributor to the 
Nation's economy. Infrastructure challenges certainly are of 
concern in our area and we appreciate the opportunity to 
contribute here.
    The rapid growth in our area over the last two decades, we 
are one of the fastest-growing regions in percentage terms in 
the United States, and the rapid growth has put severe strains 
on our transportation infrastructure. We are concerned that 
without critical infrastructure improvements, our economic 
success will be halted or even reversed.
    We have been blessed with some very entrepreneurial 
business leaders and elected officials: Senator Boozman, 
Senator Pryor; in years past, Congressman John Paul 
Hammerschmidt. Our region is home to business leaders with the 
names Walton, Tyson and Hunt, J.B. Hunt Transport. Those 
companies have grown into national and international leaders in 
their field and contributed greatly to the United States 
economy, and much of that growth has occurred despite having 
some of the infrastructure advantages of other regions.
    Through the leadership of our officials, we do have one 
four-lane interstate that connects our region to the Nation's 
interstate system, but we are one of only a handful of the 350 
metropolitan regions around the country that is connected to 
just a single other MSA by an interstate. There are very few 
regions in the country that are just connected to one other 
MSA, so we are at a disadvantage there.
    The State of Arkansas is a small, somewhat rural State and 
also is facing some of the revenue challenges much like 
Tennessee and other mid-size and smaller States are facing as 
well. Projects costs have increased in Arkansas and we are 
facing project delays and revenue concerns, and not able to 
deliver the projects at the rate that we would like to see.
    We are losing ground on key regional projects and we are 
afraid that we are going to lose our competitive edge as a 
region and certainly as a State.
    Like Director McKim said, Arkansas is also putting its 
money where our message is. Our region has invested in 
infrastructure at a rate far beyond that of other regions in 
the State of Arkansas. Our local communities have taxed 
themselves to the tune of almost $300 million for the last 
decade or so to invest in projects, many of which had 
historically been State and Federal-funded projects. So we are 
doing all we can as a region. We have done a lot and think we 
are doing as much as we can as a region.
    Our State also is looking at raising some additional 
revenues above and beyond the traditional revenues that have 
flowed for transportation. Our State legislature just referred 
out two tax questions to voters that will be on the ballot 
probably sometime in 2012 to ask voters if they want to raise 
the diesel tax by a nickel in the State of Arkansas, and if 
they want to raise the State sales tax. Both would generate 
funds to invest in transportation infrastructure in Arkansas.
    Even with these efforts at the local level, even with 
opportunities at the statewide level, those revenues are not 
sufficient to meet the statewide transportation needs in 
Arkansas.
    So we come to you today, and I think you have heard it from 
all the panelists. We urge you to quickly move forward on 
passing a robust, multi-year authorization bill. It would give 
regions, State Highway Departments, metropolitan areas, 
communities the certainty that they need to move forward. We 
are trying to do what we can both at the State and local 
levels, but it is very difficult to do it without that 
certainty or that vision of what the future looks like at the 
Federal level.
    We also as a region would like to ask for programs that can 
help us substantially complete high-priority projects, high-
priority corridors, some of which were named in ISTEA, and have 
been high-priority corridors for almost 20 years, coming on 20 
years in fact this year.
    We have a key high priority corridor that cuts through the 
heart of Northwest Arkansas. It is a future I-49. Just in our 
general area, there are 3 million Americans that would directly 
benefit from the completion of portions of I-49 through the 
middle part of America. Eventually when it is entirely 
complete, it will connect New Orleans to Winnipeg, Canada. It 
will be an international corridor for trade and commercial 
activities and greatly increase access and the economic 
competitiveness of the middle part of the United States.
    We also, and I think my colleague, Mr. Wright, and I would 
share the view that regions are key economic building blocks 
for our Nation's future. So as you develop programs in the next 
reauthorization legislation, we urge you to think at the 
regional scale. Business and industry certainly don't see the 
political boundaries and the geographic boundaries that a lot 
of us live in and are concerned about. They need the assets and 
the strengths of an entire region regardless of what those 
boundaries are, to be able to support them and their growth and 
their activities.
    Finally, as you set program thresholds, we would like to 
ask that you remember that small and mid-size regions are very 
nimble and very competitive. As I mentioned a couple of times 
before, Northwest Arkansas had the greatest growth as a region 
in population terms of any region in the middle part of the 
United States. We have had more new residents move in over the 
last decade than moved into Kansas City or Minneapolis in 
actual population terms.
    So we are growing. We are growing at a faster rate, but if 
thresholds are set on Federal programs and they are set too 
high to only touch major metropolitan areas, that leaves 
dynamic regions like Northwest Arkansas and Little Rock and 
other areas that have had a very successful economic run, out 
of some of the investments and opportunities that you will be 
providing.
    With that, Madam Chair, I conclude my remarks and thank 
you.
    [The prepared statement of Mr. Malone follows:]

    [GRAPHIC(S) NOT AVAIALBLE IN TIFF FORMAT]
    
    Senator Boxer. Thank you all, and thanks to Senators here 
who reached out and brought you forward.
    As we work together on a bill, we have Senators Inhofe, 
myself as the Chair and Ranking Member, and then we have 
Senator Baucus and Senator Vitter as the Chair of the 
Subcommittee. Our goal is to get a draft that we can share with 
Members on both sides so that we can move forward.
    Now, every one of you wants a robust bill, and I agree. You 
want certainty, and everything you said, I couldn't agree with 
more. Only one of you suggested a way to fund the Highway Trust 
Fund. Kudos to Mr. Wright. This is the worst question anyone 
can ask, because we know that these are tough times and new 
revenues are hard to come by.
    I would like you to comment on three things, and just very 
quickly because I just need to know where you stand. On the 
idea of indexing the gas tax to inflation, tell us whether you 
support that, whether you think that is doable.
    Second, it is alarming to me that the House Members, not 
all of them, certainly not all of them, have proposed and they 
already passed legislation that says the Highway Trust Fund can 
be used for other things. Do you feel we should protect the 
Highway Trust Fund?
    Third is, and Cindy McKim knows this very well, but this 
notion of leveraging the local dollars. You all come from very 
dynamic regions and a lot of your local people are saying, OK, 
we will step out. We will pay a little more sales tax. Maybe we 
will do a toll road. We will get you revenues, but it has got 
to be used for these specific projects.
    What I am very interested in doing, and Senator Inhofe 
seems to really like this idea, and Congressman Mica over on 
the House side does, is the notion of using TIFIA because it is 
a current program to fast-forward these projects. Let's just 
say in the Little Rock area they pass a measure to build 10 
different roads. If the Feds come in at the beginning of this 
and fast-forward the money, there is no risk at all because 
those dollars will come back. So we are looking at ways of 
reforming TIFIA to make it pay for more than just 30 percent of 
the total, maybe 50 percent of the total.
    By the way, I say to my friends here, it is unbelievable. 
Through the TIGER II grants, we gave Los Angeles, and I know 
there are other grants, but I am only familiar with this one, a 
half-billion dollar check to fast-forward one of the projects 
that the voters agree to. The cost to the Federal Government, 
the score was $20 million for that. So it is amazing what we 
can do here if we are smart.
    So to sum up my question, how do you feel about this notion 
of leveraging? How do you feel about indexing? I would like to 
just go down through the panel, start with Mr. Leggett.
    Mr. Leggett. I strongly believe that we should. I think 
that we are kidding ourselves if we believe that additional 
revenues are not needed.
    Senator Boxer. How about raiding the trust fund?
    Mr. Leggett. I think we should keep that separate and apart 
from general renenues. Violating the trust fund itself I think 
would be counterproductive.
    Senator Boxer. OK.
    Mr. Leggett. We have a real strong need here.
    Senator Boxer. OK, I am moving quickly.
    Mr. Kennedy.
    Mr. Kennedy. As we discussed in the National Infrastructure 
Financing Commission, we had a whole section on indexing. We do 
support that and I know the National Association of Counties 
supports that also.
    As for TIFIA, for the most part, smaller, more rural 
States, we just don't qualify for a TIFIA loan. They are large, 
one-project. In the State of Montana, we have such a vast 
amount of acreage in Montana that you do not have a large 
enough project to qualify. So for rural States, rural counties, 
it would be very difficult.
    Senator Boxer. That is why we are reforming it. We will 
have a whole section just dedicated to rural because we know 
that we need to take care of rural, and it would be a grant 
program, not a loan program for the rural.
    Mr. Kennedy. OK, but it would need some work.
    Senator Boxer. Well, we will work with you. Would you stand 
by and work with us, because we are changing TIFIA so that our 
rural people can get grants because you are exactly right, they 
don't have the same muscle as a larger region.
    Mr. Kennedy. Madam Chairman, I would do that. I am very 
intrigued by the infrastructure bank. We had a lot of 
discussion over it over the last couple of years on the 
infrastructure bank.
    Senator Boxer. Senator Baucus is pursuing that, along with 
Senator Kerry and Senator Hutchison. So it has bipartisan 
support.
    Mr. Kennedy. If we have some flexibility, especially for 
the rural areas, of being able to tie into it.
    Senator Boxer. I have to move down.
    Mr. Kennedy. Thank you.
    Senator Boxer. Ms. McKim, because I am running out of time.
    Ms. McKim. Thank you, Madam Chairman. With regard to 
indexing, I think we would be in support of that. I would point 
out that the last increment of a State gasoline excise tax did 
include an indexing provision, so I think that there is room 
for that.
    With regard to protecting the Trust Fund, absolutely. What 
we have learned in California is that the voters expect that 
funds that they provide specifically for transportation should 
be spent on transportation.
    Finally, we absolutely support all kinds of creative 
financing techniques and the opportunity to leverage both local 
and State dollars against the TIFIA program or the 
infrastructure bank or anything else you can come up with would 
be really appreciated.
    Senator Boxer. Good. We are working it.
    Yes, Mr. Degges.
    Mr. Degges. Tennessee supports indexing. It certainly would 
be a good tool to continue the investment we make in 
transportation. Certainly protecting the Highway Trust Fund and 
Transportation Trust Fund is a very important aspect.
    As far as leveraging dollars, we certainly support that. 
The TIFIA program as it currently exists probably doesn't help 
Tennessee a whole lot. When Senator Alexander was Governor, he 
kind of started the State of Tennessee down a pay-as-you-go 
path. We have no debt in our transportation system in 
Tennessee. We don't want to borrow money. We do work with local 
governments and sometimes they will borrow money, and we 
leverage local, State, Federal and private dollars in 
delivering transportation projects. But I don't think we really 
want to borrow any more money, frankly, or borrow any money.
    Senator Boxer. So you don't go to banks to help you? You 
don't go to the voters and pass bonds for anything?
    Mr. Degges. The Tennessee Department of Transportation has 
zero debt. We use bond authority and work with our cash-flow, 
but we are a pay-as-you-go State.
    Senator Boxer. I don't understand that. You use bond 
authority. What do you mean by that? Don't you borrow with the 
bond authority that you have?
    Mr. Degges. I do not pay any interest.
    Senator Boxer. I didn't ask that. With TIFIA, you don't pay 
interest either.
    Mr. Degges. OK. Again, don't get me wrong. Innovative 
financing is something we would support, but we do not borrow 
money. I use basically the advance construction technique that 
in Federal programs I have a corollary in State programs, where 
we don't borrow money. If I have $2 billion worth of stuff 
under contract today, I have $2 billion to pay for it. I use 
that cash on hand and get bond authority on it, and let other 
projects. So I spend the same dollar twice, but I have to watch 
it every day to make sure the check doesn't come due.
    Senator Boxer. OK. Well, we will talk later because I want 
to know how I can spend every dollar twice.
    [Laughter.]
    Senator Boxer. It is a little over my pay grade, but I am 
going to tell my husband to talk to you.
    [Laughter.]
    Senator Boxer. Mr. Wright?
    Mr. Wright. You know where I stand on indexing the gas tax. 
We strongly support that, and of course protecting the Highway 
Trust Fund.
    I would say on the leveraging, TIFIA, TIGER, those tools 
have been extraordinarily important in our region. In 
particular, fast-forwarding projects can bring down the cost of 
the construction of those projects, especially in the economic 
environment we have right now. We can build some of these 
projects for less money if we had the funding up front to do 
them more rapidly, and we would see the benefits accrue faster, 
too.
    We look at the L.A. 3010 proposal as just inspirational in 
the kind of thinking that we need.
    Senator Boxer. OK.
    Mr. Malone?
    Mr. Malone. We also certainly would support indexing. 
Without indexing, the purchasing power of the gas tax 
diminishes every day. With inflationary pressures increasing, 
that will be more so in the future. Also we would absolutely 
like to see firewalls around the Trust Fund.
    Then along with some of the more rural or semi-rural 
States, there are concerns around financing mechanisms unless 
there are some grant components to them.
    Senator Boxer. Oh, yes.
    Mr. Malone. Then I would also add our region, I think, 
would be very receptive to the idea of tolling for some new 
capacity as well. There are no toll roads in the State of 
Arkansas. We have we think some traffic count so it would make 
some of the projects toll-feasible. But none of the projects 
certainly would be 100 percent toll-feasible.
    We would still need other sources of revenue as well, but I 
think that is something our region would be comfortable with. 
It has been floated as options to advance some of these 
projects, and the public and the community seems very 
receptive. They just want the projects.
    Senator Boxer. I agree. I see a big change there.
    So just so everyone knows, my situation is that I have to 
go down toward the White House. There is a meeting about 
military families and Senator Burr and I are the Chairs of the 
bipartisan Military Family Caucus. So in short order, I will be 
leaving and Senator Sanders said he could stay for the whole 
time and would take over the Chair.
    So when I leave, it is nothing you said because, frankly, I 
like everything you said.
    Actually, Senator Boozman is acting as Chair, so I will 
call on you and you can decide whether you want to go first, or 
Senator Alexander. It is up to you.
    Senator Boozman. Why don't I yield to Senator Alexander.
    Senator Alexander. Thank you, Senator Boozman. That is very 
courteous of you.
    I would like to go back to something, to the exchange the 
Chairman and Mr. Degges were having before I get to a question 
about maintenance, because it goes directly to the question of 
funding. Our State has no road debt, none. The reason is that 
when we want to build a road, we raise the money and pay for 
it.
    We are one of the poorer States. We have been getting 
richer, but the result of that is the following. Most States 
pay most of their gas tax money on interest on bonds. We spend 
all of our gas tax money on roads.
    So three times during the 8 years I was Governor, we saw an 
economic need to have a better road system. The auto industry 
was moving to the Southeast and the suppliers were saying we 
need to make just-in-time deliveries and we are going to base 
our location decision upon whether you have a good four-lane 
highway system.
    So we had three big road programs. I haven't mentioned the 
word tax yet. I have said road programs. So we agree three 
times on the road program we wanted, and then we asked how 
shall we pay for it. We considered: Shall we borrow the money? 
Or shall we simply raise the gas tax and pay for it? What we 
did was double the gas tax in order to pay for it.
    The result has been we now have one-third of our 
manufacturing jobs are auto jobs. The decision to do it was 
broadly supported. We had 80 or 90 legislators out of 99 
support it. Nobody got in political trouble over it. The only 
ones who got in political trouble were the ones who voted 
against it because of the help it would be to our State.
    So what I am going to be looking for, Madam Chairman, is a 
Federal road program that fits the Federal dollars we have, 
which means it is going to have to have a clear Federal 
priority as we do it.
    I can understand very well the need or the argument for a 
tunnel under the Hudson River, but I am thinking: Well, if you 
want a tunnel under the Hudson River, why, build it, just like 
we did. I mean, we built 100 miles of Interstate-quality 
highways in Tennessee, 90 percent State and 10 percent Federal. 
Usually, it is 90 percent Federal and 10 percent State. We just 
built them.
    So we had a road to Oak Ridge National Laboratory. We had a 
road around where the auto industry would eventually locate. So 
if you live in an area where you have so much of the economic 
wealth, New York, Connecticut and New Jersey, where building a 
tunnel will add to the value of the homes and the businesses, 
then you have a perfect argument to go out to the people and 
say let's build a tunnel if that is what you want to do.
    But I don't think it is a good idea to come down to 
Tennessee and say we want people in a State where you are not 
as wealthy to send money to New York to build a tunnel, just as 
we didn't come to you to say send us money to build a road to 
Oak Ridge.
    So I think a lot of that argument is going to be, we won't 
need to have it because we are not going to have the money at 
the Federal level. We are going to have to focus on clear 
Federal priorities, and that is going to eliminate a lot of 
Federal dollars for what are, in my opinion, regional or local 
priorities because it is just as easy to raise the gas tax in 
Tennessee a penny as it is to raise the gas tax in the United 
States a penny. The money in Tennessee or Arkansas or New 
Jersey, wherever it goes, stays home. You can spend it. It 
doesn't have the Federal rules to the great extent that many of 
you have talked about here today.
    So that is a little bit of an editorial about how I am 
going to be looking at financing of a transportation program.
    Now, Mr. Degges, I want to give you a chance a little bit. 
If you were to list two or three things that we could do, and I 
appreciate the fact that there is a bipartisan spirit on this 
committee to do these kinds of things. Two or three things we 
could do to make it easier for you to spend Federal dollars 
more efficiently, what would those two or three things be?
    Mr. Degges. First of all, Senator, I do appreciate your 
leadership in transportation. Certainly, the 1986 road program 
that was kind of your baby is something that is a legacy for 
Tennesseans.
    As far as a couple or two or three things, historically in 
transportation it was pave it black and don't look back. You 
built it and moved on. Operations and maintenance was not 
something that was looked at. Maintenance and operations are a 
huge issue right now, so certainly we are able to use Federal 
funds for a lot of our operational costs, but when it goes down 
to maintenance, preventive maintenance certainly is eligible 
for Federal aid, but a lot of our routine maintenance costs are 
not eligible for Federal aid.
    We believe if we have made this huge investment with 
Federal aid dollars in our transportation system that is only 
makes sense to have an expanded role of Federal aid dollars in 
the maintenance of facilities.
    Another thing to look at is also in the STIP-TIP process. 
You heard me mention a little bit earlier that certainly we 
need a long-range or a multi-year bill to be able to plan our 
activities, but it is very difficult for us when we are trying 
to get down to delivering a project, a lot of things change 
during the development process of a project. Particularly 
toward the end of a fiscal year, it is very difficult to go 
through a 90-day process to update your TIP or STIP so you can 
implement something that was planned. So that is certainly a 
big issue.
    Then the real issue on the multi-year bill is it is kind of 
a jigsaw puzzle. If I have just 1 year's worth of funding, I am 
going to do small projects. It is like one piece of the jigsaw 
puzzle. It is very critical to have that piece in the puzzle, 
but if I have a multi-year bill, I can put groupings of pieces 
together and if I am a business owner and want to expand my 
business, if I am just seeing an intersection project and TDOT 
can't say, well, you know, I am going to be able to widen that 
job next year. Here is the date I am letting it and here is the 
day I am going to have it open to traffic.
    By not being able to give that type of information to not 
just contractors in the highway industry, but to business 
owners, people that are creating jobs out there. They are 
reluctant to make those investments in Tennessee because they 
don't know when things are going to be happening on the ground.
    Senator Sanders [presiding]. Senator Lautenberg?
    Senator Lautenberg Yes, thanks, Mr. Chairman.
    The theme that runs through here is consistent with what 
the results are that we see across the country, where 
investments in transportation pay off handsomely.
    A couple of questions that through the discourse that we 
have had here. I am going to submit my opening statement for 
the record, Mr. Chairman, and get on with a couple of questions 
that were raised in our discussion here.
    Senator Alexander, the distinguished Senator from the State 
of Tennessee, and a thoughtful person, asked a fairly simple 
question: Why don't we just build our transportation needs? 
Well, our Governor decided, even though we had $6 billion of 
help from outside sources; $6 billion from the Port Authority, 
which is the bi-State agency, and the Department of 
Transportation, to help us build a tunnel across the river, and 
the Governor decided that we couldn't afford it. We even worked 
out the possibilities of covering overages away from New 
Jersey. With all of that, we had a cancellation of the project. 
The Governor decided we couldn't afford it.
    My view is very frankly, we are not going to take up a 
political difference here, is that we can't not afford it. We 
have to do these things in the best interests of our State and 
our region.
    So we are now embarked on a new project called the Gateway 
Tunnel, and it has popular support. The problem is that things 
that are long term like building a tunnel, 5, 6, 7, 8 years, 
sometimes make it hard for the constituents to understand why 
we are spending all that money, but that is what leadership is 
about.
    I would ask you this, on the indexing, whoever would like 
to answer this, who decides on when the index kicks in and how 
the price of gasoline gets to where it is? If Exxon wants to 
increase the gas price, what they are doing is taking charge 
for our constituents' expenses and there has got to be 
something in it. Any of you who can explain it to me now, I 
would appreciate it. What controls do we have on the 
fundamental price?
    The indexing sounds so logical, but what do you do about 
the basic price?
    Mr. Wright?
    Mr. Wright. Sure, thank you, Senator. A very simple way to 
deal with it would simply be instead of charging a certain 
number of cents on a gallon, to add on a sales tax which would 
over time be able to increase as the price of gas went up. That 
is a kind of call it a hold harmless or the kind of easiest way 
to try and do it.
    Beyond that, I think it would really depend on trying to 
identify again what are the national priorities in terms of the 
scale of investment in transportation that the Nation needs, 
and trying to figure out some match between those. We have 
gotten so far off, order of magnitude off the kind of scale of 
investment that we require, and the resources that are 
necessary, that we have got to try and revisit that issue.
    Senator Lautenberg. What we are seeing very frankly is a 
short-sighted approach. New Jersey is proudly one of the 
highest income States in the country, but also it is the most 
crowded. We are the most densely populated State in the 
country, with something around 9 million people. If one wants 
an exercise to use time, just go out and try to get someplace 
on the turnpike. Then you can spend a lot of thoughtful time 
reviewing, contemplating what life would be like if it wasn't 
there.
    We are traffic jam, bumper to bumper. We cannot quite get 
the support that we need. There is no free lunch and I am not 
for raising taxes. I am not for raising tolls. But I am for 
getting the ability to make life better. The one thing we can 
do is build the facility that will automatically attract 
investment and funding.
    So Mr. Chairman, this is an excellent hearing. We have 
terrific witnesses here, and I ask unanimous consent that 
questions be able to be submitted for the record, including my 
whole statement.
    Mr. Sanders. Without objection.
    [The prepared statement of Senator Lautenberg follows on 
page 100.]
    Senator Sanders. Senator Boozman.
    Senator Boozman. Thank you, Mr. Chairman.
    I also would ask unanimous consent that my statement go 
into the record.
    Senator Sanders. Without objection.
    [The prepared statement of Senator Boozman follows on page 
101.]
    Senator Boozman. One of the things that I think has 
frustrated all of us, in fact in the last big highway 
reauthorization, we had a study done about how we could be more 
efficient, what we needed to get done. One of the things that 
they highlighted was the fact that I think they said 10 years 
was the average length of time that it took to get a project 
done.
    Certainly, we talk about indexing and things. The inflation 
that takes place in trying to get these projects up and going, 
and most of that time is spent with the permitting processes 
and things like that as opposed to the actual construction.
    Do you all have any recommendations about how we can get 
projects completed more quickly? Any duplicative process that 
you see that we might, again, not doing away with in the sense 
of making it more of an environmental problem or whatever, but 
duplicative processes so that we could actually get these 
things done and significantly save money?
    Just jump in there.
    Mr. Leggett. As I indicated a little bit earlier, we used 
the environmental streamlining process for a project in 
Montgomery County, Maryland which is called the Inter County 
Connector. It was actually started, at least in concept, in 
1950. Just a couple of weeks ago we had a ribbon-cutting 
ceremony on one leg of it. It is almost 60 years old at this 
point.
    Part of the challenge in the 1980s, 1990s and all the way 
up until this time had been the inability to have all of the 
Federal agencies coordinated, especially those dealing with 
some of the environmental aspects of this project.
    We were able in the last 3 years, through a streamlined 
process to have all of those agencies work together, meeting 
regularly almost on a monthly basis, to work through much of 
the problems and difficulties that we have had for many years.
    So streamlining that process, while at the same time 
maintaining environmental integrity, I think would be a key to 
what we see here. That means lots of money, time, and 
frustration could be avoided. As Mr. Paul Degges just indicated 
a moment ago, increasing the level of predictability. If you 
don't have predictability on projects, you are not likely to 
have the other assets to come into play in a timely fashion. So 
having the flexibility to resolve some of these challenges 
earlier I think will save a great deal of what we see happening 
today.
    Mr. Kennedy. Senator, we had a project started in 2004. The 
planning started in 2006. Last week, last Friday we met with 
EPA, Corps of Engineers, Fish, Wildlife and Parks, the whole 
group. This is now 2011. We are now on the second set of the 
EIS.
    What the frustration is is we need the parties to come 
together. They need to look at the project at the very 
beginning. They need to look at see what the problems may be, 
outline them, and then start working on those problems as 
quickly as possible. Then come back and streamline their 
process, instead of coming in at the end of the project and 
delaying it a year or two.
    No one is trying to circumvent NEPA or, in the State of 
Montana, MEPA. But our biggest problem is the delays that take 
place, and one agency can delay it a year or 2 years.
    The other problem that I do have, Senator, is on the EIS, 
it seems to go on forever and ever and ever. What happens in 
that process is we spend a good share of the project studying 
and doing the environmental assessment. By the time it comes 
back to the project, we have to look for the dollars to 
actually do the project.
    Ms. McKim. Senator, thank you for that question. CalTrans 
submitted a list of very specific kinds of improvements, things 
that could be incorporated in the Reauthorization Act that we 
think would streamline the process.
    For example, making permanent the NEPA delegation. 
California was the only State that took up the opportunity to 
engage in that pilot project. We have seen a reduction, a 
speeding-up of the process of on average about 14 months 
through that delegation process. So that was I think a great 
idea and something that I think deserves further review.
    In my written testimony, there are many other examples of 
kinds of improvements that could be made. It is not a 
comprehensive list, but it can kind of give you an indication 
of the real opportunity that is out there. I think that this is 
an opportunity for all of us to look at some of the processes, 
encourage that cooperation.
    One of the things that we have done in California is 
require the permitting agencies at the State level to respond 
within a set period of time so that you don't keep getting 
pushed on and pushed on and pushed on. So I think that that may 
be an opportunity if we could get that same kind of time-
certain review incorporated for Federal agencies as well.
    Thank you.
    Senator Boozman. Thank you.
    Senator Sanders. Do you want another minute? Is that all 
right? All right, just maybe another minute.
    Senator Boozman. Yes, it's an interesting question.
    Senator Sanders. If people could briefly respond and then 
we will go to Senator Cardin.
    Mr. Degges. Well, certainly streamlining is, some of the 
things that we have discussed, particularly in the STIP-TIP 
process, is important, would allow us a lot of help on the 
front end.
    One of the issues that we face in Tennessee has to do with 
I will have an approved environmental document, and then when I 
get down to my permitting phase, things will change. I have a 
project today that I was going to let the contract in May, have 
an approved environmental document. I am getting everything 
ready to go to contract, and now I am being told by the Fish 
and Wildlife Service I have to look for lactating Indiana gray 
bats. It is a Federal endangered species.
    Well, I can't do that study until June, so it will be 
August or September before I have anything. I have lost the 
construction season. I think the NEPA document should have 
addressed that information and that we should not be in the 
position we are in right now in the process.
    Mr. Wright. I will just quickly also stress there is great 
frustration with the process and the length of time it takes to 
get things going. In some ways, I think that the disconnect 
between the planning and the financing is part of the problem 
here. We start to do these reviews not really knowing if the 
project is going to have funding available for it or not at the 
end of the day. So there is no sense of prioritization.
    Also on a regional level, it takes an enormous amount of 
coordination. Right now, there are studies to think of a new 
tunnel under the Hudson River. There is the NextGen high-speed 
rail study. There is the Gateway study. There is a study to 
look at the No. 7 subway extending under the Hudson River.
    There are a series of different things, and they are not 
being coordinated. The MPO process is supposed to be providing 
a kind of regional coordination, and whether it is 
strengthening, consolidating others, that process is not 
delivering the kinds of certainty and priority on a regional 
basis that we really need. I think that leads to more layers of 
complication and additional years, if not decades, of delay.
    Mr. Malone. I would also associate myself with the comments 
around environmental streamlining. But we have projects that 
have been identified as high priority corridors in 1991. The 
environmental clearances have been granted. It is simply 
funding constraints, lack of funding that are holding our key 
infrastructure projects back throughout the State of Arkansas, 
but certainly in Northwest Arkansas.
    So funding certainty, multi-year commitments.
    Senator Boozman. Thank you, Mr. Chairman and Senator Cardin 
for your indulgence.
    Senator Sanders. Senator Cardin.
    Senator Cardin. Thank you, Mr. Chairman. I thought the 
series of questions and responses were extremely helpful, and I 
want to thank all of our witnesses. I think we are all in 
agreement that we need a multi-year, predictable funding 
source. This is critically important for the infrastructure 
needs, for job growth, for our economy.
    Mr. Chairman, I would ask consent to put my opening 
statement also in the record, and my introduction of my county 
executive, Ike Leggett of Montgomery County. I had a glowing 
introduction for you, Mr. County Exec, but let me just tell my 
colleagues that County Exec Leggett, of course, is the county 
executive of Montgomery County, which is larger than several of 
our States and has a school district that is one of the largest 
in the country.
    But for particular importance to this committee is that 
Montgomery County is host to numerous Federal agencies, 
including NIH and NIST and FDA and Nuclear Regulatory 
Commission, and Naval Bethesda and the list goes on and on and 
on.
    Transportation is critically important to get people to 
those facilities. I can tell you, having been caught up in some 
of the traffic problems, County Exec Leggett has a huge 
challenge.
    [The prepared statement of Senator Cardin follows:]
      Statement of Hon. Benjamin L. Cardin, U.S. Senator from the 
                           State of Maryland
    Good morning Madame Chairman, Ranking Member Inhofe, members of the 
committee and our panel of witnesses. I want to especially welcome 
Montgomery County Executive Ike Leggett to this morning's hearing, whom 
I will introduce to the committee before he delivers his testimony.
    States, counties and municipalities are at the frontlines of 
building and maintaining the Nation's vast network of roads, transit 
systems, rail lines and highways that we rely on every day. These are 
no simple tasks that are complicated for every month that a new surface 
transportation authorization is not enacted.
    While it is important that Congress address the Federal budget, it 
is also important that we keep sight of how these decisions may affect 
our counterparts at the State and local level. Be it cuts in education 
funding in the long-term FY11 CR, or the scope and size of the next 
surface transportation authorization bill, these budget decisions have 
tremendous consequences for State and local governments and may create 
substantial challenges on their ability to effectively serve our 
citizens.
    In the context of the transportation bill, this is about state, 
county and municipal transportation departments hiring and contracting 
engineering and construction workers and reestablishing these important 
jobs in our State and local economies.
    The latest statistics from the labor department are promising as 
national unemployment levels continue to decline, \1\ a sign that our 
economy is on the path toward a full scale recovery. However, 
unemployment in the construction trades remains comparatively high. \2\ 
Passing a full reauthorization of the transportation bill will add even 
more jobs to our economy, increase payrolls and create more wage 
earners which increases tax revenues and will affectively cut the 
deficit.
---------------------------------------------------------------------------
    \1\ Department of Labor: March 2011 nonfarm payroll employment 
increased by 216,000, and the unemployment rate decreased to 8.8 
percent (April 1, 2011).
    \2\ According to the end of month labor statistics report for 
March, unemployment in the Construction sector is at 20.3 percent down 
slightly from 20.7 percent in February. For the last 12 months 
unemployment in the construction trades has remained right around 20 
percent.
---------------------------------------------------------------------------
    Our states and counties are ready and waiting for Congress to act. 
I am excited about Maryland's transportation priorities and the models 
for transportation planning and development that are being executed at 
the county and city levels that compliment the State's initiatives.
    Maryland's top three transportation priorities are three public 
transit projects:
    The Purple Line: is an East-West transit link connecting several 
Greater Washington communities in Prince George's and Montgomery 
Counties that will help alleviate traffic congestion on the Beltway and 
other suburban arterial highways like Route 193, East-West Highway and 
New Hampshire Avenue. The Purple line will also provide a suburban 
connection between four of the six Maryland branches of the MetroRail 
system.
    The Baltimore Red Line: an East-West transit line running through 
the heart of downtown Baltimore from the city's Eastern and Western 
borders with Baltimore County. The Baltimore Red Line will serve more 
than a dozen communities in need of better transportation options.
    Corridor Cities Transitway: Is a perfect example of a transit 
system designed to extend efficient transit service linking the rural 
and bedroom communities Western Montgomery and Frederick Counties to 
economic centers at the core of Montgomery as well as Metro's Red line.
    These are projects that improve the livability of communities that 
comprise Maryland's largest and growing population centers.
    Under the leadership of County Executive Isiah Leggett, Montgomery 
County has been a leader in the development of Smart Growth and transit 
oriented development in the State. The success of the revitalized 
Downtown Silver Spring, the vibrant retail and entertainment venues in 
Bethesda, the multi-billion dollar commercial center of Rockville, the 
I-270 technology corridor can all be attributed to the skillful design 
of the county's multi-modal transportation system that emphasizes the 
development of livable communities.
    Maryland's other transportation priority is to invest in the 
State's existing infrastructure. In a lot of ways the capacity of 
Maryland's highway system is maxed out. Maryland has come to the 
realization that the best way to improve the efficiency and reduce 
traffic congestion is not by adding more travel lanes, but to use what 
limited resources it has to maintain a state-of-good repair on the 
existing system and provide transportation alternatives that will get 
more cars off of the road.
    This has not always been the approach the State has taken to 
prioritizing its transportation funds. There were times when capacity 
expansion was believed to be the answer to improving travel times and 
reducing congestion. \3\
---------------------------------------------------------------------------
    \3\ The Ehrlich administration's preference for the $2.6 Billion 
ICC over the Purple Line is an example.
---------------------------------------------------------------------------
    However, using capacity expansion as a means of addressing 
congestion has often proven to be:
    Short-sighted in its utility: Because motorists' demand for space 
on the road consistently outpaces DOTs' ability to keep up with growth;
    Expensive in the long-term: The initial capital expense of new 
construction is very costly, but also because every new lane mile 
constructed makes for more lane miles that need to be maintained over 
time; and is
    Unsustainable: Both in terms of financial resources and space for 
expansion.
    The funding used in the Highway Trust Fund for Transit and 
Transportation Enhancement Projects like bike/ped trails are often the 
most effective means of saving highway users time and money, 
particularly in urban and suburban regions of the country.
    Sacrificing these programs as a means of stretching our highway 
dollars would only:
    Increase traffic congestion: Eliminating funding for all viable 
transportation options means everyone must rely on their individual 
cars and be stuck in traffic together on the same roads that our 
freight haulers use to deliver products to market. This harms business 
logistics and worker productivity;
    Increase wear and tear on the roads: Less transit and 
transportation options means more cars putting a great level of stress 
and wear on our roads and bridges. This creates a no win situation for 
State and local DOTs. If they increase capacity to deal with increased 
traffic the backlog of maintenance needs just gets longer. If they 
focus on maintenance of good repair congestion needs are not adequately 
met. This is where transit and other forms of transportation would 
normally fit in.
    Increase air pollution: Transit is a proven effective means of 
helping achieve attainment with the Clean Air Act. However, a national 
transportation plan that is overly car-centric generates more harmful 
tailpipe emissions.
    Increased energy consumption of foreign oil: No amount of domestic 
oil drilling could keep up with an exceedingly car dependent society.
    Stranding non-drivers: Eliminating Federal funding for transit 
disproportionately harms people, who either by choice or inability, do 
not drive. Adequate transportation is vital to our daily lives, and is 
something many motorists take for granted. Eliminating Federal funding 
for transit and alternative transportation will have a ripple effect 
through our economy, public health, and basic quality of life.
    Sound management of our nation's transportation portfolio follows 
the same guidelines that apply to sound financial planning:
    Diversify your investment portfolio: In rail, highways, bridges and 
transit:
    Maintain your investments and don't spend beyond means: We must 
take care of existing infrastructure assets so that they are useful and 
valuable for years beyond the initial capital expenditure. We should 
seek the most cost effective approaches to transportation design and 
not over build our transportation systems.
    Maryland's consolidated transportation plan takes a comprehensive 
approach to developing the state's transportation system and not 
developing the modes separate from each other. This interconnected 
approach helps improve efficiencies across the board.
    While investments in transportation infrastructure are required for 
the U.S. to remain competitive in our global economy, the Federal 
Government's role extends beyond these investments to Federal 
transportation and energy policy.
    Our nation receives extraordinary public benefit from mass 
transportation systems. These systems take thousands of cars off our 
congested highways. Transit takes tons of pollutants out of the air we 
breathe and moves people efficiently into and out of our most important 
commercial centers.
    I look forward to hearing from our witnesses.

    Senator Cardin. I want to ask a question as it relates to a 
concern I have that as we go to the surface reauthorization 
bill, this surface transportation reauthorization, there are 
some on this committee that would like to narrow the discretion 
to our local officials as to how those funds can be used.
    It is interesting in Maryland, our three top transportation 
projects are all transit projects, including for the people of 
Montgomery County, Maryland, the purple line, which is 
critically important to get people across county, as well as 
the Corridor Cities Transitway which will be critically 
important to expand our high-tech opportunities in the State of 
Maryland.
    All of these projects will help not only get people to 
where they need to be. It will not only help us as far as our 
energy policy by using less energy for transportation. It will 
save us money in unnecessary roads or maintenance that we need 
in order to keep our road systems capable for the increased 
traffic that would otherwise be needed.
    So my question to you, and I will start with County Exec 
Leggett, as we look at ways to reauthorize the surface 
transportation, how important is it to give you the necessary 
discretion to determine what modes of transportation are right 
for your community? Or should the Federal Government be 
prescriptive in order to be able to get more roads done in this 
country by narrowing your discretion?
    Mr. Leggett. We need greater discretion and more 
flexibility. There is some uniqueness that you have heard and 
seen here. For example, what may be more unique about Montana 
may be different from Montgomery County. While a planning 
process, for example, will take advantage of smart growth to 
build around the Metro or the Metrobus systems, having a system 
or process that narrows the flexibility I think would be unfair 
to the various jurisdictions that we see, with particular needs 
in each and every jurisdiction around the country.
    So having more flexibility would allow us to do better 
planning, build more predictability, and take advantage of some 
of the assets in which we have already invested. So I am 
clearly in favor of a greater level of flexibility at the local 
and State levels to give us the advantages of taking in stock 
those kinds of assets that we already have in place.
    Senator Cardin. I want to let the others answer, but I want 
one more question for County Exec Leggett. So let me raise some 
controversial issues, not with me, but with some Members of the 
committee.
    There has been transportation money used for bike paths and 
green space between communities, so actually people can walk, 
rather than taking an automobile. It is such a small amount of 
the total dollars that are available. Is that discretion also 
important for the type of smart growth that you are talking 
about in Montgomery County?
    Mr. Leggett. It certainly is. Clearly when you talk about 
bike paths, for example, when we look at the Walter Reed 
National Military Medical Center in Bethesda. One of the key 
goals for us is to get people out of their cars, to take 
advantage of the bike and walking paths that we can build there 
for people to use.
    It depends to some degree on how far you go when you start 
looking at some of the aspects of green space and other things. 
There may be some levels at which you have some limitations. 
But when you look at clear transportation, the ability to bike 
or walk will enhance traffic mobility because actually you are 
taking trips off the road. The more that we do that, the 
greater the transportation convenience for everybody else on 
the roads.
    Senator Cardin. Thank you.
    Mr. Kennedy.
    Mr. Kennedy. Senator, the flexibility is very important. As 
I had stated before about investor confidence, investor 
confidence, they want to see what you are actually investing 
in. If we put the money in the surface transportation bill and 
the projects don't get funded or we see them on the books 
forever and ever, and the average is 10 to 12 years to get a 
project off the ground, what happens is that investor 
confidence goes down.
    I think we need the flexibility at the local level. We need 
to look at the MPOs. We need to look at the RPOs. In the State 
of Montana, we have two MPOs and the rural areas have no 
planning organizations that are stated. We need some 
flexibility for local governments, counties to be able to work 
with the State of Montana.
    In the State of Montana, what we did with our secondary 
road project was we set up in regions, and we were able to work 
with the MDOT and make some recommendations. We set priorities 
in those regions. We didn't have enough money to do one project 
in a county, so what we were able to do is pool our moneys 
together and be able to do a priority for every county.
    Senator Cardin. Thank you.
    Thank you, Mr. Chairman.
    Senator Cardin. Thank you.
    This has been really a very excellent hearing. Let me close 
it out by asking a couple of questions to our panelists. Let me 
start off with the folks from the rural areas. Maybe just start 
with Mr. Kennedy.
    In the State of Vermont, we don't have a major subway 
system. We are not building a multi-billion dollar bridge. We 
have different problems than our urban neighbors do.
    What are some of the specific challenges that rural 
communities face in terms of transportation and Federal 
Government transportation policies?
    Mr. Kennedy. Senator, one of the biggest problems that do 
have is when your average daily travel per roadway is very 
small, but you have rural safety issues on those same roads, 
and the road doesn't qualify or the flexibility or not having 
the local match. That is what happens in a lot of our rural 
counties across the State of Montana.
    What we need is to be able to work with our State Highway 
Department, the flexibility at the Federal level. We can build 
a road at the county level in a third of the time it takes to 
build a Federal road. So as we look at our roadways and safety 
dollars coming down to help us, that flexibility to be able to 
give confidence in the local government to put into those 
roads. Rural safety on rural roads is a No. 1 issue.
    Senator Sanders. OK, thank you.
    Mr. Degges.
    Mr. Degges. In Tennessee, our population is about half 
urban, and urban is a relative thing. It is not New York City-
urban, but metropolitan planning organizations and half-rural. 
In the cities in Tennessee, people say solve that congestion, 
but get your barrels out of the road. In the rural areas, it is 
about access and jobs. They want those construction barrels.
    So what I can tell you about the rural areas of Tennessee 
is they are starving for access, and certainly access for 
transportation facilities is important. I do a lot of 
industrial recruiting in the State of Tennessee.
    Senator Sanders. Starving for access means what? More 
roads?
    Mr. Degges. Not necessarily. Roads, certainly. We provide 
public transportation in all 95 counties in Tennessee, so the 
entire State is accessible with public transit.
    Senator Sanders. Is the public transportation reasonable?
    Mr. Degges. Well, it is not a train. It is rubber tire. It 
is vans.
    Senator Sanders. Can people get to work on a daily basis?
    Mr. Degges. Yes, but the predominant form of transportation 
in rural areas is vehicle, a single-person vehicle.
    But certainly that access is what I hear over and over. 
When I am trying to help recruit industry to Tennessee, they 
want to be within 5 miles of a freeway. They want to be able to 
have access. So that is a critical piece of how we can create 
jobs.
    I want people in rural areas to have jobs in their 
communities. I don't want them to drive to Nashville, Memphis 
and Knoxville every day. That compounds my problem as a 
transportation official.
    Senator Sanders. Mr. Malone.
    Mr. Malone. Yes, sir. Arkansas I would say is very similar 
in that about half our population is in more urban areas, and 
Northwest Arkansas is certainly in that category. We have some 
highway needs around moving people within the region. But then 
Arkansas has also got a great number of communities, some that 
are cities of over 10,000 that have very, very limited highway 
access.
    Our State Highway Department has a program that they hope 
to be able to address if statewide funding measures are 
adopted, to guarantee a four-lane connection to all cities over 
a certain size, primarily for economic development and economic 
growth opportunities.
    Arkansas is seeing some shift from the more rural areas to 
our cities, our more urban areas, and I expect that trend to 
continue over the next decade as well. But we need to invest in 
the rural and remote areas to make sure that they are able to 
remain stable and contributing to the economy.
    Senator Sanders. Mr. Leggett.
    Mr. Leggett. We are somewhat unique in Montgomery County. 
Despite the fact that we have a very large urban area that we 
have talked about a little bit earlier, with a large Metro 
connection, Montgomery County has over 100,000 acres of 
farmland. From this distance right here, 35 to 40 minutes away, 
I could take you into some of the more rural areas that are 
comparable to those seen in this entire country. They face the 
same difficulty that you heard before, access, safety, 
maintenance. Because in many ways the safety is involved with 
not only maintaining roads to the standards that we want, but 
for farm vehicles and other items that are within the same 
right-of-way.
    Senator Sanders. Let me ask this, and I know California has 
rural areas so it is not all L.A. and San Francisco. Are we up 
to snuff in terms of rural bus service? I think in Vermont we 
have a number of bus companies. It is not a strong presence. If 
you had to get to work every day, you probably wouldn't rely on 
that. Can we do better? Is that an opportunity? Are we 
investing enough? Is there potential there?
    Who wants to comment? Yes, Mr. Malone.
    Mr. Malone. Sir, I would submit that in Arkansas, we don't 
do enough in our suburban and urban areas either, but certainly 
in the rural areas it is very, very limited. Access is not 
there for many people.
    Senator Sanders. So if I am a senior citizen living in a 
rural area and I have to get to the local hospital or doctor 
for a visit, is it often difficult for me to do that?
    Mr. Malone. Yes, sir. There are some systems and support 
for aging and folks that have very limited opportunities. Some 
of the job access reverse commute funds support that in 
different ways, but it is not what it should be to serve the 
rural community certainly.
    Senator Sanders. Any other comments? Mr. Leggett then Mr. 
Kennedy.
    Mr. Leggett. It is a real problem, Senator, because as you 
note, in the rural areas, there are fewer people. There are 
greater distances. When you look at the lane miles and the 
amount that it takes to run an effective, timely and convenient 
bus system in those areas, it is real, real difficult.
    We have tried to augment that with MetroAccess, whereby we 
have scheduled pickups of people in areas that we know are 
populated with elderly residents having mobility problems, but 
certainly we have not had enough in terms of the reliability 
and the frequency of buses in rural areas.
    Senator Sanders. If we had the resources, do you think that 
is something that is useful to explore?
    Mr. Leggett. Certainly, yes, sir.
    Senator Sanders. Mr. Kennedy.
    Mr. Kennedy. In the rural areas, especially, we work with 
the Council on Aging in our county, and we work with the 
Transit Department to get bus and van services. But really, 
most of those programs, we may get the vehicle, but we run it 
on bake sales and fundraisers and things like that to get the 
system going.
    Most doctors' appointments don't work with the schedule 
that the van or the bus service has and that becomes a real 
problem. Even in towns where we do have a fairly good, in 
Billings, transit system, it is the amount of funding that 
comes into it, and actually the number of people that use the 
system, to offset what the cost is. We have to subsidize quite 
a bit for the transit program.
    So the flexibility in a rural area is a tough one. One of 
the other pieces is in the rural area, we try to get the city 
to be able to offer us busing service outside the city of 
Billings, but because of the rules and the regulations, it had 
to be classified as a rural area and we had to go a longer 
distance to make sure it qualified for rural area. Because of 
those rules and regs, it made it impossible and too costly for 
us.
    So some flexibility in there to be able to offer some 
busing service outside of the metropolitan area would really 
help us.
    Senator Sanders. In Vermont, a lot of transportation in the 
more rural areas is done by folks who volunteer, but who are 
given gas money. I suspect this is not unique. One of the 
problems is the price of gas has gone up. Many people can't 
afford to take people to the doctor. Is that an issue in other 
States as well?
    Cindy?
    Ms. McKim. Certainly, the issue of rural transportation is 
a real concern for us. We kind of have a two-edged sword in 
California. As some of the counties that have been fortunate to 
pass sales tax measures to improve transportation, you end up 
with a system of haves and have nots. I think in some respects, 
California is kind of a microcosm of the Federal Government 
there in the State. Our rural areas tend to be very remote. It 
is very costly to provide any kind of a scheduled service. I 
think that we do need more flexibility to be able to try to 
serve those special needs communities.
    Senator Sanders. Senator Boozman, did you have any last 
thought or question?
    Senator Boozman. I would agree with you that as so much of 
this stuff, Meals on Wheels and you name it, as gas increases, 
it makes it that much more difficult. There is a lot of 
volunteering.
    Then, too, you also have a lot of people that would 
normally not consider public transportation that are starting 
to consider it.
    But I appreciate the panel. It was very informative. You 
are the people that need to be setting our policy in a sense. 
You are out there in the trenches trying to get things done.
    The comment you made, Mr. Kennedy, about a little bit more 
flexibility as we try and do these things. The other comments 
about trying to shorten these things, getting our agencies not 
sacrificing any environmental quality issues or whatever, but 
just working together to try and reduce times. I think all of 
that stuff is very, very valuable.
    So thank you for taking the time to be here with us today.
    Senator Sanders. Thank you all. It has been an excellent 
panel. We appreciate your being here and the work you are 
doing.
    Thank you.
    [Whereupon, at 10:53 a.m. the committee was adjourned.]
    [Additional statements submitted for the record follow:]
       Statement of Hon. James M. Inhofe, U.S. Senator from the 
                           State of Oklahoma
    I appreciate the opportunity to hear from State and local leaders 
about their transportation priorities. This next highway bill will be 
my 4th authorization, and I know first-hand that experiences of those 
outside of Washington have a role in guiding the policymaking process.
    Today, the challenges in continuing to provide a safe and free-
flowing transportation network have never been greater. I am sure our 
witnesses will agree that our nation's transportation needs outpace our 
current spending levels.
    The link between a robust economy and strong transportation 
infrastructure is undeniable; yet when it comes to other spending 
priorities at all levels of government, transportation is often 
neglected. Complicating matters is that the Highway Trust Fund cannot 
afford current spending levels. As I have often said, since the Highway 
Trust Fund has historically maintained high balances, it has become a 
favorite funding source for all surface transportation activities, 
including recreational trails, bike paths, ferry boats, and fixing city 
streets.
    These new responsibilities were added while maintaining essentially 
the same revenue sources--a user fee on motor fuel. Simply put, there 
are not sufficient resources to properly address the core 
responsibilities of the program, let alone the extra programs we have 
added over the decades. If we are serious about a long term re-
authorization, we are going to have to re-prioritize the activities the 
Federal highway program currently supports.
    According to the Administration, our nation's backlog of deferred 
road and bridge maintenance is $600 billion and growing. Typically, 
spending on roads and bridges at all levels of government is around $80 
billion a year, of which the Federal Government makes up 40 percent. 
Clearly, with limited Highway Trust Fund resources, the Federal highway 
program is only part of the solution.
    If we are going to adequately address the maintenance backlog, 
growing congestion and the expansive increase in truck freight, public 
jurisdictions at all levels must take responsibility. This means that 
not only do we need to get the most for our Federal highway dollar, but 
we need to encourage State and local governments and the private sector 
to invest as much as possible in roads and bridges. I look forward to 
hearing from our witness on how they believe the highway program can 
accomplish this.
                               __________
     Statement of Hon. Frank R. Lautenberg, U.S. Senator from the 
                          State of New Jersey
    Madame Chairman,
    There is no doubt that America's economic success depends on our 
ability to move people and goods.
    If we don't continue investing in our country's transportation 
infrastructure--especially our roads and rails--we risk reversing the 
progress we've started to make in getting Americans back to work.
    This means more than just filling potholes and fixing broken 
traffic lights--it means unclogging our congested highways, expanding 
our transit systems and building a world-class high-speed rail system.
    Transportation is especially important to the economic health of my 
State of New Jersey, which is situated at the crossroads of some of the 
most traveled paths for moving people and goods in our country.
    That is why I'm working with Amtrak to build the Gateway Tunnel 
under the Hudson River.
    This innovative project will expand high-speed rail in the vital 
Northeast Corridor and shorten travel times for New Jersey commuters.
    It will also ease congestion throughout the New Jersey-New York 
area, spark job creation and boost property values.
    I want to welcome Tom Wright of the Regional Plan Association--one 
of our state's key transportation advocates.
    Mr. Wright's group has done extensive research on the critical 
value of transit and rail projects, and I am eager to hear his views on 
the Gateway Tunnel proposal.
    These are the types of transportation investments we need to drive 
the economy.
    Incredibly, House Republicans are willing to slam the brakes on 
America's progress by slashing investment in transportation.
    This short-sighted approach ignores some of the greatest public-
works achievements in our country's history--like the George Washington 
Bridge, which was built during the Great Depression.
    Make no mistake: If we don't prioritize transportation investments 
in the United States, our cities and communities will fall behind.
    Transportation is too important to our future to allow reckless 
cuts to stall our economic recovery.
    So I want to thank the witnesses for coming today--I look forward 
to hearing your views on how we can work together to create a 
transportation system that will carry us into the future. Thank you.
                               __________
Statement of Hon. John Boozman, U.S. Senator from the State of Arkansas
    Madam Chairman, I would like to thank our witnesses for appearing 
here today. I look forward to listening to your thoughts on the next 
highway bill. As everyone here knows, our nation's transportation 
system is in extreme need of investment.
    We cannot afford to let current projects go unfinished, yet we face 
a major obstacle of how to fund these initiatives. In my home State of 
Arkansas, Interstate 49, which runs from Canada down to the Port of New 
Orleans, remains unfinished. This alone leaves numerous companies 
without a direct North-South surface transportation route in the very 
center of our country. In addition, Arkansas is home to several large 
trucking companies who, along with their clients, are directly, and 
negatively, impacted by the lack of forward progress on a 
transportation bill. My State is in a unique position, both 
geographically and in terms of the businesses which reside there. 
Thousands of jobs are on the line, the ability of our people to travel 
hangs in the balance, and our national security is at risk if our 
infrastructure begins to fail. We must find a way to move forward with 
a sorely need Highway Reauthorization, and it is my hope that you all 
will provide us with new and innovative ideas to strike a balance 
between the need for funding and the work that must be completed. I 
hope each of you will share with us what works . . . and, what doesn't. 
We need to know what we can do here, to make things more efficient for 
you when you all do your jobs.
    After serving 9 years on the House Transportation and 
Infrastructure Committee, I am now very pleased to have been offered 
the opportunity to sit on this committee. Again, I appreciate the 
witnesses appearing here today, and I look forward to hearing their 
testimony.
                                 ______
                                 
 Statement of Hon. Tom Carper, U.S. Senator from the State of Delaware
    I would like to welcome our witnesses to this important hearing on 
``State and Local Perspectives on Transportation.'' It is vital that 
your perspectives be part of the debate on reauthorization of the 
transportation bill.
    The Federal transportation program cannot be successful without our 
State and local partners. These partners are responsible for the 
construction and maintenance of our Nation's transportation 
infrastructure. It is significant that these partners--from diverse 
geographic locations--are united in their call for a robust 
transportation bill.
    A few weeks ago the head of the AFL-CIO, Richard Trumka, and the 
head of the Chamber of Commerce, testified before this committee in 
support of a robust bill with a gas tax increase. It is notable that so 
many Federal, State, and local partners believe that increased 
investment in transportation is essential for our future prosperity. As 
we work to reauthorize the transportation bill, there are certainly 
ways that we can improve existing transportation spending. We can 
consolidate duplicative programs and accelerate project delivery in 
order to get more bang for the buck. However, we cannot cut our way to 
a 21st Century transportation systems. Additional investment is 
absolutely necessary.
    I look forward to working with my colleagues to achieve a 
transportation bill that is wiser about spending existing resources and 
delivers the funding we need.

                                 <all>

</pre></body></html>
